Audit Report




OIG-08-003
Audit of the Bureau of Engraving and Printing’s Fiscal Years
2007 and 2006 Financial Statements


October 31, 2007




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               October 31, 2007


            MEMORANDUM FOR LARRY R. FELIX, DIRECTOR
                            BUREAU OF ENGRAVING AND PRINTING

            FROM:                   Michael Fitzgerald /s/
                                    Director, Financial Audits

            SUBJECT:                Audit of the Bureau of Engraving and Printing’s
                                    Fiscal Years 2007 and 2006 Financial Statements

            I am pleased to transmit the attached audited Bureau of Engraving and Printing
            (BEP) financial statements for fiscal years 2007 and 2006. Under a contract
            monitored by the Office of Inspector General, KPMG LLP, an independent certified
            public accounting firm, performed an audit of the financial statements of BEP as of
            September 30, 2007 and 2006 and for the years then ended. The contract required
            that the audit be performed in accordance with generally accepted government
            auditing standards; applicable provisions of Office of Management and Budget
            Bulletin No. 07-04, Audit Requirements for Federal Financial Statements; and the
            GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles
                •   that management’s assertion that BEP maintained effective internal control
                    over financial reporting as of September 30, 2007 was fairly stated in all
                    material respects.
                •   no instances of reportable noncompliance with laws and regulations tested.

            KPMG LLP also issued a management letter dated October 29, 2007, discussing
            other matters involving internal control over financial reporting and its operation
            that were identified during the audit but were not required to be included in the
            auditors’ reports.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express,
opinions on BEP’s financial statements or BEP management’s assertion on the
effectiveness of internal control over financial reporting, or a conclusion on
compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ reports dated October 29, 2007 and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Ade Bankole, Audit Manager, Financial Audits at
(202) 927-5329.

Attachment
 THE DEPARTMENT OF THE TREASURY 

BUREAU OF ENGRAVING AND PRINTING 



           Financial Statements 



 Years ended September 30, 2007 and 2006 



(With Independent Auditors’ Reports Thereon)
                                         THE DEPARTMENT OF THE TREASURY 

                                        BUREAU OF ENGRAVING AND PRINTING

                                                 FINANCIAL STATEMENTS

                                     FOR THE YEARS ENDED SEPTEMBER 30, 2007 AND 2006 


                                                                  TABLE OF CONTENTS




INDEPENDENT AUDITORS’ REPORT .................................................................................................................1 



FINANCIAL STATEMENTS ...................................................................................................................................2 


     Balance Sheets .......................................................................................................................................................2 

     Statements of Operations and Cumulative Results of Operations .........................................................................3 

     Statements of Cash Flows ......................................................................................................................................4 

     Notes to the Financial Statements ..........................................................................................................................5 


MANAGEMENT’S REPORT 

ON INTERNAL CONTROL OVER FINANCIAL REPORTING .......................................................................15 


INDEPENDENT AUDITORS’ REPORT

ON INTERNAL CONTROL OVER FINANCIAL REPORTING .......................................................................16 


INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE 

AND OTHER MATTERS .......................................................................................................................................17 

                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036


                                 Independent Auditors’ Report


The Inspector General, Department of the Treasury and 

The Director of the Bureau of Engraving and Printing, Department of the Treasury:


We have audited the accompanying balance sheets of the Bureau of Engraving and Printing
(Bureau) as of September 30, 2007 and 2006, and the related statements of operations and
cumulative results of operations and cash flows (hereinafter referred to as “financial statements”)
for the years then ended. These financial statements are the responsibility of the Bureau’s
management. Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to
obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements, assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the Bureau of Engraving and Printing as of September 30, 2007 and
2006, and the results of its operations and its cash flows for the years then ended in conformity
with U.S. generally accepted accounting principles.

We have also examined management’s assertion that the Bureau maintained effective internal
control over financial reporting as of September 30, 2007, and have issued our report thereon
dated October 29, 2007. That report is an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in assessing
the results of our fiscal year 2007 audit.

In accordance with Government Auditing Standards, we have also issued our report dated
October 29, 2007, on our tests of the Bureau’s compliance with certain provisions of laws,
regulations, contracts, and other matters. The purpose of that report is to describe the scope of
our testing of compliance and the results of that testing, and not to provide an opinion on
compliance. That report is an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of
our fiscal year 2007 audit.




October 29, 2007




                               KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                               a member of KPMG International, a Swiss cooperative.
                                            THE DEPARTMENT OF THE TREASURY
                                           BUREAU OF ENGRAVING AND PRINTING
                                                        Balance Sheets
                                               As of September 30, 2007 and 2006


                                                                                       2007             2006
                                                                                           (In Thousands)
ASSETS
Current assets
  Cash (Note 3)                                                                    $   175,980   $    164,729
  Accounts receivable (Note 10)                                                         39,134         33,032
  Inventories, net (Note 4)                                                            107,102         83,516
  Prepaid expenses                                                                       5,452          4,321
Total current assets                                                                   327,668        285,598


Property and equipment, net (Note 5)                                                   256,056        250,364
Other assets, net (Note 6)                                                              18,459          17,525
Total assets                                                                       $   602,183   $    553,487


LIABILITIES AND EQUITY
Liabilities
Current liabilities (Notes 7 and 8)
   Accounts payable                                                                $    15,507   $      11,818
   Accrued liabilities                                                                  29,289          29,765
   Advances                                                                              1,623             899
Total current liabilities                                                               46,419          42,482

Workers' compensation liability (Note 8)                                                57,435          59,007
Total liabilities                                                                      103,854        101,489

Commitments and contingencies (Note 12)

Equity
  Invested capital                                                                      32,435         32,435
  Cumulative results of operations                                                     465,894        419,563
Total equity                                                                           498,329        451,998
            Total liabilities and equity                                           $   602,183   $    553,487


See accompanying notes to the financial statements.




                                                              2
                                      THE DEPARTMENT OF THE TREASURY
                                     BUREAU OF ENGRAVING AND PRINTING
                                               Statements of Operations and
                                             Cumulative Results of Operations
                                     For the Years Ended September 30, 2007 and 2006


                                                                                           2007          2006
                                                                                              (In Thousands)
Revenue from sales (Note 10)                                                           $ 578,111   $    477,297
Cost of goods sold                                                                       461,565        421,637
Gross margin                                                                             116,546         55,660

Operating costs:
  General and administrative expenses                                                     56,219         53,489
  Research and development                                                                13,996         10,750
                                                                                          70,215         64,239

Excess of revenues over expenses (expenses over revenues)                                 46,331         (8,579)

Cumulative results of operations at beginning of year                                    419,563        428,142
Cumulative results of operations at end of year                                        $ 465,894   $    419,563


See accompanying notes to the financial statements.




                                                            3
                                        THE DEPARTMENT OF THE TREASURY
                                       BUREAU OF ENGRAVING AND PRINTING
                                                 Statements of Cash Flows
                                     For the Years Ended September 30, 2007 and 2006


                                                                                            2007           2006
                                                                                               (In Thousands)
Cash flows from operating activities
Excess of revenues over expenses (expenses over revenues)                              $    46,331    $    (8,579)
  Adjustments to reconcile excess of revenues over expenses (expenses over revenues)
    to net cash provided by operating activities:
    Depreciation                                                                            31,990         32,484
    Loss from disposal of property and equipment                                                —             104
  Changes in assets and liabilities
    (Increase) decrease in accounts receivable                                              (6,102)         9,006
    Increase in inventories                                                                (23,586)        (8,270)
    Increase in prepaid expenses                                                            (1,131)          (646)
    Increase in other assets                                                                  (934)          (203)
    Increase (decrease) in accounts payable                                                  3,689         (1,746)
    (Decrease) increase in accrued liabilities                                                (476)         1,950
    Increase (decrease) in advances                                                            724         (2,982)
    Decrease in workers' compensation liability                                             (1,572)        (6,090)
       Net cash provided by operating activities                                            48,933         15,028


Cash flows from investing activities
Purchases of property and equipment                                                        (37,682)       (33,549)
        Net cash used in investing activities                                              (37,682)       (33,549)

Net increase (decrease) in cash                                                             11,251        (18,521)
Cash at beginning of year                                                                  164,729        183,250
Cash at end of year                                                                    $   175,980    $   164,729


See accompanying notes to the financial statements.




                                                               4
                        THE DEPARTMENT OF THE TREASURY 

                       BUREAU OF ENGRAVING AND PRINTING


                                Notes to the Financial Statements 

                                 September 30, 2007 and 2006 




1. Reporting Entity

The Bureau of Engraving and Printing (Bureau), a component of the United States (U.S.)
Department of the Treasury, is the U.S. Government's security printer. The Bureau designs and
produces U.S. currency. The Bureau also advises and assists Federal agencies in the design and
production of other U.S. Government documents requiring counterfeit deterrence or secure
production.

The Bureau operates under basic authorities conferred by the Act of July 11, 1862, (12 Stat. 532;
also, 31 U.S.C. 5114) and other laws and regulations. In accordance with the provisions of
Public Law 81-656, effective August 4, 1950, the operations of the Bureau are financed by
means of a revolving fund. This fund is reimbursed through billings to the Bureau's customers
for products delivered. Public Law 95-81 authorized the Bureau to include in its product prices
an amount to provide funding for the acquisition of capital equipment and future working
capital. Invested capital represents the historical value of the initial contribution made by the
Federal Government.

The financial statements represent the consolidation of two Federal revolving funds. The
majority of all financial transactions (approximately 99%) are contained in the Bureau of
Engraving and Printing Revolving Fund, which finances Bureau operations. The other revolving
fund, the Mutilated Currency Revolving Fund, is used to redeem damaged paper currency
received from the public. All significant balances and transactions between the funds have been
eliminated in consolidation.

2. Summary of Significant Accounting Policies

Basis of Accounting

The Bureau has historically prepared its financial statements in conformity with U.S. generally
accepted accounting principles (GAAP), based on accounting standards issued by the Financial
Accounting Standards Board (FASB), the private-sector standards-setting body. Under such
standards, the Bureau prepares its financial statements using the full accrual basis of accounting
under which revenues are recognized when earned and expenses are recognized as incurred,
regardless of when cash is exchanged.

The Federal Accounting Standards Advisory Board (FASAB) has been designated by the
American Institute of Certified Public Accountants as the standards-setting body for financial
statements of federal government entities, with respect to the establishment of GAAP. FASAB
has indicated, however, that financial statements prepared based upon accounting standards
published by the FASB may also be regarded as in conformity with GAAP for those federal
agencies, such as the Bureau, that have issued financial statements based upon FASB accounting
standards in the past. Accordingly, consistent with historical reporting, the Bureau’s financial
statements are presented in accordance with accounting standards published by the FASB.




                                                5                                      (continued)
                        THE DEPARTMENT OF THE TREASURY 

                       BUREAU OF ENGRAVING AND PRINTING


                                Notes to the Financial Statements 

                                 September 30, 2007 and 2006 




Cash

Cash represents the aggregate amount of the Bureau’s funds held on deposit with the U.S. Treasury
and are available to pay liabilities. The Bureau historically does not maintain significant cash
balances in commercial bank accounts, and owns no cash equivalents.

Estimates

The preparation of financial statements in accordance with GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and related
revenues and expenses. Those estimates most significant to the Bureau’s financial statements are
the actuarial estimates made by the Department of Labor (DOL) in arriving at the liabilities for
workers’ compensation, allowances for obsolescence, the useful lives of property and equipment,
the likelihood of losses associated with contingent liabilities, and certain accrued expenses at the
date of the financial statements. Such estimates and assumptions could change in the future as
more information becomes known, which could impact the amounts reported and disclosed herein.

Inventories

Inventories are stated at standard cost, except for finished goods inventories, which are stated at
weighted average unit cost. Both methods approximate actual cost. Cost elements included in
work-in-process and finished goods inventories are direct materials, direct labor, manufacturing
overhead, and manufacturing support.

Property and Equipment

Property and equipment are recorded at cost. Major alterations and renovations are capitalized,
while maintenance and repair costs are charged to expense as incurred. The capitalization threshold
is $50,000. The Bureau capitalizes all cost associated with new construction and building
improvements.

The Bureau occupies and uses buildings and land owned by the Department of the Treasury. In
accordance with the Act establishing the revolving fund, the Bureau is not charged for the use of the
buildings or land, but is responsible for maintenance and repair of all buildings and land
improvements. The land and building shell for the Bureau's Western Currency Facility were
donated by the City of Fort Worth, Texas to the Department of the Treasury. See Note 5 for details.

Depreciation of property and equipment is calculated using the straight-line method over the
following estimated useful lives:

        Machinery and equipment                                           3 - 15 years
        Building improvements                                             3 - 40 years
        Information technology (IT) equipment and software                3 - 5 years



                                                6                                        (continued)
                         THE DEPARTMENT OF THE TREASURY 

                        BUREAU OF ENGRAVING AND PRINTING


                                 Notes to the Financial Statements 

                                  September 30, 2007 and 2006 


        Office machines                                                    5 - 10 years
        Furniture and fixtures                                             5 - 10 years
        Motor vehicles                                                     3 - 9 years


Other Assets

Other assets consist principally of machine repair parts and tools, which are used in the production
of the Bureau's products. Other assets are stated at actual cost, net of a reserve for obsolescence.

Employee Retirement Plans

Bureau employees participate in the contributory Civil Service Retirement System (CSRS) or
Federal Employees' Retirement System (FERS), to which the Bureau and employees make
contributions according to plan requirements. Consistent with reporting under multi-employer
pension plans, the Bureau does not report CSRS and FERS assets, accumulated plan benefits or
future liabilities, if any, applicable to its employees. This data is reported for plan participants
by the Office of Personnel Management (OPM).

Postretirement Benefits Other than Pensions

Postretirement benefits for former Bureau employees, specifically health care costs and life
insurance, are administered and paid by OPM through appropriations received from the U.S.
Government. The Bureau does not reimburse OPM for these payments. The Bureau's financial
statements do not include the cost of employee postretirement benefits paid by OPM, or the
actuarial liability for such benefits.

Workers’ Compensation Costs

The Federal Employee Compensation Act (FECA) provides income and medical cost protection
to covered Federal civilian employees injured on the job, employees who have incurred a work-
related occupational disease and beneficiaries of employees whose death is attributable to a job-
related injury or occupational disease. Claims incurred for benefits for the Bureau's employees
under FECA are administered by DOL and are ultimately paid by the Bureau.

The FECA liability consists of two components. The first component, the accrued FECA
liability, is based on actual claims paid by DOL but not reimbursed by the Bureau. The Bureau
reimburses DOL for the amount of actual claims normally within one to two years after payment
is made by DOL. As a result, the Bureau recognizes a current and non-current liability for actual
claims paid by DOL, to be reimbursed by the Bureau.

The second component, the actuarial FECA liability, is the estimated liability for future benefit
payments. These future workers' compensation estimates were generated from an application of
actuarial procedures developed to estimate the liability for future FECA benefits. The actuarial
liability for future worker's compensation benefits includes the expected liability for death,



                                                 7                                        (continued)
                        THE DEPARTMENT OF THE TREASURY 

                       BUREAU OF ENGRAVING AND PRINTING


                                Notes to the Financial Statements 

                                 September 30, 2007 and 2006 


disability, medical and miscellaneous costs for approved compensation cases, plus a component
for incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. These annual benefit payments have been discounted to present
value using OMB’s economic assumptions for 10-year Treasury notes and bonds, which resulted
in a discount rate of 4.93% in year one and 5.08% thereafter. Based on information provided by
DOL, the Department of the Treasury allocated the overall liability to Treasury components
based on past claims paid.

Annual, Sick and Other Leave

Annual leave is accrued as a liability when earned and the accrual is reduced as leave is taken.
The balance in this accrued liability account reflects current pay rates.

Sick leave and other types of non-vested leave are expensed as the leave is taken.

Revenue Recognition

Revenue from sales to the Federal Reserve System is recognized when finished goods
satisfactorily pass all Bureau quality control standards and are delivered to the on-site Federal
Reserve Depository vaults. Finished goods are released for shipment in accordance with
customer requirements. Revenue from the sale of uncut currency to the public is recognized at
the time the product is shipped. The Bureau does not record an allowance for returns because of
a historically negligible return rate.

Research and Development Costs and Advertising Costs

Research and development costs and advertising costs are expensed as incurred. Advertising
costs, which are reported in cost of goods sold, amounted to $3.4 million and $5.9 million in the
years ended September 30, 2007 and 2006, respectively.

Tax Status

The Bureau is a Federal entity, and therefore is not subject to Federal, state, or local income
taxes. Accordingly, no provision for income taxes is required in the accompanying financial
statements.

Commitments and Contingencies

Liabilities from loss contingencies, including environmental remediation costs not within the
scope of FASB Statement No. 143, Accounting for Asset Retirement Obligations, arising from
claims, assessments, litigation, fines and penalties, and other sources, are recorded when it is
probable that a liability has been incurred and the amount of the assessment and/or remediation
cost can be reasonably estimated. Loss contingencies that do not meet these criteria, but are
reasonably possible and estimable are not accrued, but are disclosed in Note 12.



                                                8                                     (continued)
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                  Notes to the Financial Statements
                                   September 30, 2007 and 2006


3. Cash

The year-end cash balances by fund are as follows as of September 30, 2007 and 2006:

                                                                       2007          2006
                                                                         (In Thousands)
Bureau of Engraving and Printing
  Revolving Fund                                                  $   175,154   $ 163,992
Mutilated Currency Revolving Fund                                         826         737
Total                                                             $   175,980   $ 164,729



The balance in the mutilated currency revolving fund, consisting of mutilated currency
submitted by the public for redemption, is offset by a liability to the public.

4. Inventories, net

Inventories consist of the following as of September 30, 2007 and 2006:

                                                                       2007            2006
                                                                           (In Thousands)
Raw material and supplies                                         $    48,864     $    33,019
Work-in-process                                                        35,977          32,688
Finished goods - currency                                               4,504           2,403
Finished goods - uncut currency                                        17,757          15,406
Total                                                             $   107,102     $    83,516


The allowance for inventory obsolescence was $560 thousand and $615 thousand, at September
30, 2007 and 2006, respectively.




                                                  9                                  (continued)
                        THE DEPARTMENT OF THE TREASURY 

                       BUREAU OF ENGRAVING AND PRINTING 


                                Notes to the Financial Statements 

                                 September 30, 2007 and 2006 


5. Property and Equipment, net

Property and equipment consist of the following as of September 30, 2007 and 2006:

                                                                          2007         2006
                                                                            (In Thousands)
Machinery and equipment                                               $ 393,846   $ 416,782
Building and land improvements                                          229,734     215,851
IT equipment and software                                                20,467      17,224
Office machines                                                           1,103       1,103
Furniture and fixtures                                                    1,140       1,385
Donated assets - art work                                                   125         125
Motor vehicle                                                               212         212
                                                                        646,627     652,682
Less accumulated depreciation                                           443,670     411,486
                                                                        202,957     241,196
Construction-in-progress                                                 53,099       9,168
Net property and equipment                                            $ 256,056   $ 250,364



Depreciation expense for the years ended September 30, 2007 and 2006 was $32.0 million and
$32.5 million, respectively.

The Bureau occupies and uses buildings and land owned by the Department of the Treasury.
The land and building shell for the Fort Worth, Texas facility were donated by the City of Fort
Worth to the Department of the Treasury in 1987, which holds the title thereto. At the time of
donation, the land had an appraised value of $1.5 million and the building shell cost was $5.6
million. In accordance with the provisions of Public Law 81-656, Bureau financial statements
include only the costs to build out the facility.

6. Other Assets, net

Other assets consist principally of machine repair parts and tools. The allowance for
obsolescence for these parts and tools for the years ended September 30, 2007 and 2006 was
$4.9 million and $5.1 million, respectively.




                                                10                                   (continued)
                          THE DEPARTMENT OF THE TREASURY 

                         BUREAU OF ENGRAVING AND PRINTING 


                               Notes to the Financial Statements 

                                September 30, 2007 and 2006 



7. Current Liabilities

All current liabilities are funded and consist of the following as of September 30, 2007 and
2006:
                                                                          2007         2006
                                                                            (In Thousands)
 Intragovernmental                                                   $    5,344   $     5,269
 With the public                                                         41,075        37,213
 Total                                                               $   46,419   $    42,482



 Accrued current liabilities consist of the following as of September 30, 2007 and 2006:

                                                                          2007         2006
                                                                            (In Thousands)
 Payroll                                                             $   13,758   $    13,924
 Annual leave                                                             9,994        10,315
 Workers' compensation                                                    4,220         4,766
 Other                                                                    1,317           760
 Total                                                               $   29,289   $    29,765




8. Workers’ Compensation Liability

Claims incurred and paid by DOL as of September 30, 2007 and 2006, but not yet reimbursed to
DOL by the Bureau, are approximately $10.7 million and $10.2 million, of which approximately
$4.2 million and $4.7 million represents a current liability, as of September 30, 2007 and 2006,
respectively. The Bureau will reimburse DOL for these claims in the next two years. The
Bureau's estimated non-current, actuarially-derived future workers’ compensation liability was
approximately $50.9 million and $53.5 million as of September 30, 2007 and 2006, respectively.

9. Employee Retirement Plans and Postretirement Benefits Other than Pensions

Employer contributions to the retirement plans were $15.9 million for 2007 and 2006. The
CSRS employer contribution rate for fiscal years 2007 and 2006 was 7.0%. The FERS agency
contribution rate for fiscal years 2007 and 2006 was 11.2%. The cost of providing the CSRS
and FERS benefits is more than the amounts contributed by the Bureau and the employees to
OPM. The additional cost of providing benefits, including the cost financed by OPM, which is
not included in the Bureau's Statements of Operations, totaled $23.1 million and $23.7 million in
2007 and 2006, respectively.




                                               11                                     (continued)
                         THE DEPARTMENT OF THE TREASURY 

                        BUREAU OF ENGRAVING AND PRINTING 


                               Notes to the Financial Statements 

                                September 30, 2007 and 2006 


OPM paid costs totaling $11.4 million and $10.9 million for the Federal Employees Health
Benefits Program (FEHBP) and Federal Employees Group Life Insurance (FEGLI) programs in
2007 and 2006, respectively. These costs are not included in the Bureau's Statements of
Operations.

10. Related Party Transactions and Concentration of Revenue

The Bureau’s principal customers are other Federal and quasi-Federal governmental 

organizations. During 2007 and 2006, the Bureau’s sales revenue from these organizations as 

well as the outstanding amounts due from them as of September 30, 2007 and 2006, are reflected

in the following table: 

                                 Revenue for the year ended            Accounts Receivable as of

                                         September 30                       September 30

                                   2007            2006                 2007            2006

Federal Reserve System:               (In Thousands)                     (In Thousands)
 Currency Production           $ 553,764     $     444,297           $ 37,449     $     30,136
 Mutilated Currency                3,948              3,760               974              931
United States Postal Service          —               2,648                —             1,331
Other Federal Agencies             5,362              3,268               711              634
                                 563,074           453,973             39,134           33,032

Public sales                      15,037               23,324                —                  —
Total                          $ 578,111     $        477,297        $   39,134     $       33,032


In 2001, the Bureau and the U.S. Postal Service entered into an agreement that gradually phased
out production of postage stamps at the Bureau over a five-year period ending in 2005, with only
delivery and storage services continuing through 2006.

Other Federal sales revenues are derived principally from the sale of security printing products
to U.S. Government agencies and fees charged to the Federal Reserve for the redemption of
mutilated currency.

11. Principal Suppliers

The Bureau is dependent upon sole suppliers for distinctive currency paper, certain advanced
counterfeit deterrent inks and currency paper fibers.

12. Commitments and Contingencies

The Bureau is a party in various administrative proceedings, legal actions, and claims brought
against the Federal Government by employees, contractors, and other parties. Contingencies for
litigations involving the Bureau, where the risk of loss was probable, were approximately $402
thousands as of September 30, 2007 and have been accrued in the accompanying financial
statements. Contingencies, where the risk of loss was reasonably possible, were approximately


                                                 12                                     (continued)
                         THE DEPARTMENT OF THE TREASURY 

                        BUREAU OF ENGRAVING AND PRINTING


                                Notes to the Financial Statements 

                                 September 30, 2007 and 2006 


$3.4 million and $2.9 million as of September 30, 2007 and 2006, respectively. Since the risk of
loss for these litigations was not probable, the Bureau did not record any liability. Management
believes that the ultimate resolution of these litigations will not have a material impact on
reported results of operations, financial position, and cash flows.

The American Council of the Blind and others have filed suit against the Department of the
Treasury under Section 504 of the Rehabilitation Act seeking the redesign of U.S. currency. In
2007, a judge ruled that the current U.S. currency design violates this Act and this ruling has
been appealed. No monetary damages were awarded by the judge. However, should the
appellate court find for the plaintiffs in this case, the Bureau may be required to make changes to
U.S. currency that would result in capital investment costs of up to $320 million, as well as
increased annual expenditures of up to $174 million. Any such costs would be charged to the
Federal Reserve as part of the billing rate for the production of U.S. currency. No costs have
been accrued in the accompanying financial statements as of September 30, 2007 and 2006 as no
amounts were awarded to the plaintiffs and none of the additional capital investment and annual
operating expenditures referred to above have been incurred.

Judgments resulting from litigation against the Bureau are paid by the Department of the
Treasury Judgment Fund. The Bureau is required to reimburse the Judgment Fund for paid
claims related to employee discrimination and contract disputes. There were no amounts due to
the Judgment Fund as of September 30, 2007 and 2006.

The Bureau has contracted to purchase over-printing presses, incorporating automated inspection
and packaging capability, costing approximately $47.8 million, of which $6.9 million was paid
in 2007. Delivery is expected in 2008. In 2007, the Bureau also contracted to purchase intaglio
printing presses, costing approximately $55.8 million, of which $12.2 million was paid in 2007.
Delivery will be determined upon successful completion of the final factory inspection test.

The Bureau does not carry commercial insurance on its physical assets because by law the
Federal Government is self-insured.

13. Operating Lease

In 2002, the Bureau entered into a cancelable operating lease for warehouse space that expires in
2012. The lease contains a renewal option for 10 years.

Rental expense for the years ended September 30, 2007 and 2006 was $1.3 million and $1.9
million, respectively.




                                                13                                      (continued)
                       THE DEPARTMENT OF THE TREASURY
                      BUREAU OF ENGRAVING AND PRINTING

                              Notes to the Financial Statements
                               September 30, 2007 and 2006

Future minimum payments under the lease as of September 30, 2007, are (in thousands):
      For the years ending September 30:
                            2008                                   $          1,815
                            2009                                              1,826
                            2010                                              1,838
                            2011                                              1,850
                            2012                                                935
      Total                                                        $          8,264




                                             14

15
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




        Independent Auditors’ Report on Internal Control Over Financial Reporting


To the Inspector General, Department of the Treasury, and 

The Director of the Bureau of Engraving and Printing, Department of the Treasury: 


We have examined management’s assertion, included in the accompanying “Management’s
Report on Internal Control Over Financial Reporting,” that the Bureau of Engraving and Printing
(Bureau) maintained effective internal control over financial reporting as of September 30, 2007,
based on the criteria established in Internal Control – Integrated Framework issued by the
Committee of Sponsoring Organizations (COSO) of the Treadway Commission. The Bureau’s
management is responsible for maintaining effective internal control over financial reporting and
for its assertion on the effectiveness of internal control over financial reporting. Our
responsibility is to express an opinion on management’s assertion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and the standards applicable to attestation
engagements contained in Government Auditing Standards, issued by the Comptroller General of
the United States and, accordingly, included obtaining an understanding of internal control over
financial reporting, testing, and evaluating the design and operating effectiveness of internal
control, and performing such other procedures as we considered necessary in the circumstances.
We believe that our examination provides a reasonable basis for our opinion.

Because of inherent limitations in any internal control, misstatements due to errors or fraud may
occur and not be detected. Also, projections of any evaluation of internal control over financial
reporting to future periods are subject to the risk that the internal control may become inadequate
because of changes in conditions, or that the degree of compliance with the policies or procedures
may deteriorate.

In our opinion, management’s assertion that the Bureau maintained effective internal control over
financial reporting as of September 30, 2007 is fairly stated, in all material respects, based on the
criteria established in Internal Control – Integrated Framework issued by COSO.

In accordance with Government Auditing Standards, we also noted certain additional matters that
we have reported to management of the Bureau in a separate letter dated October 29, 2007.




October 29, 2007




                                                                16 

                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss cooperative.
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




             Independent Auditors’ Report on Compliance and Other Matters


The Inspector General, Department of the Treasury and 

The Director of the Bureau of Engraving and Printing, Department of the Treasury:


We have audited the balance sheets of the Bureau of Engraving and Printing (Bureau) as of
September 30, 2007 and 2006, and the related statements of operations and cumulative results of
operations and cash flows (hereinafter referred to as “financial statements”) for the years then
ended and have issued our report thereon dated October 29, 2007.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to
obtain reasonable assurance about whether the financial statements are free of material
misstatement.

The management of the Bureau is responsible for complying with laws, regulations, and contracts
applicable to the Bureau. As part of obtaining reasonable assurance about whether the Bureau’s
financial statements are free of material misstatement, we performed tests of the Bureau’s
compliance with certain provisions of laws, regulations, and contracts, noncompliance with which
could have a direct and material effect on the determination of the financial statement amounts,
and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04. We
limited our tests of compliance to the provisions described in the preceding sentence, and we did
not test compliance with all laws, regulations, and contracts applicable to the Bureau. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, disclosed no
instances of noncompliance or other matters that are required to be reported herein under
Government Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the Bureau’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by
anyone other than these specified parties.




October 29, 2007




                                                              17 

                              KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                              a member of KPMG International, a Swiss cooperative.
